                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

11 Case Number: A-03050026                                                        11          Page 1 of 1



          We received an allegation that an NSF proposal' contained figuresfimages plagiarized from
          published papers.2 Our initial review noted that the figures in question in the proposal cited one
          of the co-PIS as the source. Further, according to the proposal headings, the section of the
          proposal in which the alleged copied figures appeared was authored by this same co-PI.
          Consequently, we considered this co-PI as the ~ubject.~   Finally, we observed that the subject
          submitted two earlier NSF proposals4as the sole PI, each of which contained the exact same
          figures, appropriately and accurately cited.

          We wrote to the subject who responded that, as a result of her move to a new institution, she
          joined a new research team. As a member of the new team, she was asked to participate in the
          NSF proposal. Consequently, she provided the section of the proposal that included the
          questioned figures. She said that, because she would be traveling when the proposal was to be
          prepared and submitted, she provided the PI on the proposal the text and figures for her section
          before she left. This material came from one of her earlier NSF proposals, in which she
          appropriately cited the figures. She said that, in reviewing the material she provided the PI, she
          realized that the version she gave him was not the final version from the proposal, but a version
          without citations. The PI called her while she was away asking about the citations. She did not
          have a copy of the proposal to review and, inadvertently, provided the wrong information.

          At the subject's request, the PI provided an explanation as well. He confirmed the subject's
          information. Further, he included copies of emails to others that showed his attempts to get the
          appropriate citations for the subject's section. In the end, the PI explained that he elected to
          insert the citation to the subject in the figures.

          We determined that the subject's explanation, corroborated and documented by the PI, showed
          that this was an honest error. This case is closed and no further action will be taken.




                                                  Iwas submitted bv I



I'
 NSF OIG Form 2 (1 1102)
